                                       NATIONAL SCIENCE FOUNDATlON
                                        OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

  TO: AIGI       File Number: I92110028                                          Date: 16 May 2002

11) Subject: Closeout Memo                                                   I           Page 1 of 1


        There was no closeout written at the time this case was closed. The following information was
        extracted from the file in conformance with standard closeout documents.

        Our office was informed that the subject' was alleged to have submitted duplicate proposals and
        received duplicate funding from 2 federal agencies.2 The subject's company3 pled guilty to one
        felony count of false statements. The subject was sentenced to five years of probation and one
        hundred hours of community service. The subject received a civil settlement of $1 15,000.00.

        The attached documents constitute the closeout for this case.




       ' Asok K. Mukhopadhyay
        NSF, NASA
        AKM Associates
1       69/12/95   TLW 10:12 FAX 2025148782               PUBLIC CORRUPT
    \
I

                                                               U.S, Department of Justice

                                                               United States Attorney

I                                                              District of Columbia


                                                               I&itlry cmw
                                                               555 P o d SL N.I1!
                                                               Wdriragron,DC 20001


                      Contact:     Kevin A. Ohlson                      FOR IMMEDIATE RELEASE
                                    (202) 514-2340                      September 11, 1995


                                                  PRESS RELEASE

                                             ERIC H. HOLDER, JR.
                                           United States Attorney
                                        for the District of Columbia

                     United States Attorney Eric H. Holder, Jr., announced that AKM
                                                                .   .

              ~ssociates,Inc. a california research and development company that
              has provided b a s i c :and applied research and prototype hardware and

              software development to United States agencies, was sentenced in

              United S t a t e s District Court today to five years probation and one
              hundred hours of community services for making false statements to
              the National S c i e n c e Foundation (NSF). AKM falsely stated that it
              had not submitted "Equivalent Proposalstito other a g e n c i e s when it

              had a l r e a d y submitted t h e equivalent c o n t r a c t proposal to the
              N a t i o n a l Aeronautics and Space Administration                   (NASA).   AZavI also

              concealed from its proposal the fact that it had secured a n o t h e r

              related c o n t r a c t from NASA.

                     AKM h a s   also p a i d   $40,000    of a total of $115,000 to settle

              civil claims arising f r o m t h e s a m e c o n d u c t .      T h i s figure represents

              the cost of t h e investigation and the amount that AKM received from

              submitting equivalent p r o p o s a l s to NSF a n d NASA a s w e l l a s t o t h e

              United States Army and Air Force.
